No. 20-746

In the Supreme Court of the United States
SOUTH BAY UNITED PENTECOSTAL CHURCH, ET AL.,
Petitioners,
v.
GAVIN NEWSOM, ET AL.,
Respondents.

CERTIFICATE OF ELECTRONIC SERVICE

I, Helen H. Hong, Deputy Solicitor General, a member of the Bar of this Court
hereby certify that on April 12, 2021, consistent with this Court’s order of April 15,
2020, an electronic copy of State Respondents’ Letter of April 12, 2021 in the aboveentitled case was served by electronic mail upon:
Charles S. LiMandri
LiMandri & Jonna LLP
P.O. Box 9120
Rancho Santa Fe, CA 92067
cslimandri@limandri.com

Jeffrey P. Michalowski
Office of County Counsel, County of
San Diego
1600 Pacific Highway, Suite 355
San Diego, CA 92101
jeffrey.michalowski@sdcounty.ca.gov

I further certify that all parties required to be served have been served.
/s/ Helen H. Hong
HELEN H. HONG
Deputy Solicitor General
Office of the Attorney General
600 West Broadway, Ste. 1800
San Diego, CA 92101
Telephone: (619) 738-9693
Counsel for State Respondents

